         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Approval of Contractor Executive
Salaries by Department of Energy
Personnel




DOE/IG-0882                        March 2013
                                 Department of Energy
                                   Washington, DC 20585
                                        March 22, 2013

MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Approval of Contractor
                         Executive Salaries by Department of Energy Personnel"

INTRODUCTION AND OBJECTIVE

In April 2011, the Department of Energy awarded a nearly $2.2 billion contract to URS|CH2M
Oak Ridge, LLC, (UCOR) for the environmental cleanup at the East Tennessee Technology
Park, Oak Ridge, Tennessee. As a support provider for the Office of Environmental
Management (EM), the Oak Ridge Office (ORO) is responsible for oversight of the UCOR
contract, including analyzing and performing market analyses to assess the reasonableness of the
proposed contractor executive salaries.

The Department is the largest civilian contracting agency within the Federal government
consisting of a contractor workforce of about 100,000, with some receiving executive salary. In
August 2007, the Office of Inspector General issued five reports on executive salaries and fringe
benefits for contractors working for the Office of Science, the National Nuclear Security
Administration and EM. These reports concluded that there were questioned and unallowable
salary and fringe benefit costs of about $386,000 at two Department national laboratories.
Management took corrective actions in response to our reports.

The Office of Inspector General received a complaint alleging that an ORO senior management
official approved salaries for UCOR executives that were higher than the ORO Human
Resources (ORO HR) calculated market rates without proper authority. We initiated this
inspection to examine the facts and circumstances surrounding the allegation.

RESULTS OF INSPECTION

Our inspection confirmed the essence of the complaint. The review revealed that a former ORO
senior management official deviated from requirements established in the awarded contract by
approving UCOR contractor executive salaries that were higher than the market rates calculated
by ORO HR officials. Specifically, we found that:

   •   Without proper authority, a former ORO senior management official approved 10
       contractor executive salaries that exceeded market salary rates calculated by the ORO HR
       office. In the two most extreme cases, one executive's annual base salary determination
                                                2


       was 82 percent higher than the ORO HR calculated market rate, from $164,889 to
       $299,800; and the other was 74 percent higher than the ORO HR calculated market rate,
       from $194,400 to $337,581.

   •   During the course of our inspection, and after we questioned the initial salary approvals,
       ORO rescinded these approvals. Subsequently, a senior ORO procurement official
       approved salary increases for all 10 contractor executives at the same level UCOR
       requested in its original contract proposal, without regard to established ORO HR
       calculated market rates. The annual salary difference ranged from $5,741 to $143,181
       per executive over the ORO HR recommended market rates for the Oak Ridge area.

Our inspection identified uncertainty and a number of significant missteps related to the process
for reviewing and approving proposed contractor executive salaries when new contracts were
awarded. For example, ORO and Headquarters officials mistakenly assumed that the executive
salary amounts submitted by UCOR were found to be reasonable by the Source Evaluation
Board (SEB) officials during the contract pre-award phase. After we questioned the process, a
procurement official at ORO even went so far as to prepare a document certifying that an
executive salary reasonableness determination had been made during the SEB process. We
determined, however, that despite ORO's assurances and a signed certification, the SEB
responsible for reviewing UCOR's proposal had not actually performed such a review. Instead,
SEB officials told us that they expected that UCOR executive salaries would be set based on the
ORO HR market analysis.

We discussed the salary setting procedures with Headquarters program officials, who told us
they were under the impression that a new process for setting contractor executive salaries had
been adopted by ORO procurement officials. As such, they did not believe that the Department
Acquisition Letter 2007-02, Contractor Executive Compensation, applied. Acquisition Letter
2007-02 provides guidance on the compensation of contractor senior executives under all
contracts and references the sections of the Federal Acquisition Regulation needed to determine
reasonableness. We ultimately determined that the market analysis, referenced in the Federal
Acquisition Regulation and Department Order 350.1, Contractor Human Resource Management
Programs, had actually been performed by ORO HR staff; however, both ORO management and
procurement officials elected not to use the calculated market salary rates completed by ORO
HR when establishing UCOR executive salaries. The former ORO senior management official
who ultimately approved the salary increases explained that ORO approved them because it
believed that it had the authority to do so. The former official acknowledged that in doing so,
ORO had inadvertently circumvented the Department's prescribed approval process. Therefore,
approving officials did not specifically evaluate the proposed executive salaries nor could they
provide information indicating that the salary increases were reasonable.

During a subsequent discussion of an initial draft of this report, ORO and EM officials told us
that they used the SEB pre-award process to determine reasonableness of executive salaries. As
such, ORO and EM officials asserted that they had not circumvented the Department's prescribed
approval process. The officials also indicated that the SEB obtained audit services from an
independent consulting firm to assess the reasonableness of the salaries. However, we were told
by the consulting firm that an assessment of the reasonableness of a contractor's salary was
                                                3


outside of its scope of work. The consulting firm officials indicated that their assessment
focused on determining whether the proposed total compensation of UCOR key personnel
exceeded the per executive total compensation benchmark ($693,951 at the time of the
assessment) established by the Office of Federal Procurement Policy. We discussed the results
with ORO senior management officials and they acknowledged the fact that the consulting firm
did not perform a reasonableness assessment of contractor executive salaries.

In light of current budgetary pressures, we concluded that the Department needs to implement
and execute measures to ensure that contractor executive salaries are: (i) reasonable; (ii)
consistent with local market compensation rates; and (iii) developed using established
Departmental procedures. Anything less could adversely impact ORO missions by diverting
funds from other pressing mission needs. In this particular case, the Department could incur
approximately $3.45 million over the market rate salaries for 10 UCOR contractor executive
salaries over the life of the 5-year contract.

To help clarify contractor salary setting requirements and prevent recurrence of the events
described in our report, we made several recommendations.

MANAGEMENT REACTION

Management generally concurred with the recommendations in the report. Specifically, the
Director, Office of Acquisition and Project Management agreed to take action to update
Department policy. ORO and EM management committed to provide guidance and develop
policies and procedures consistent with the updated policy. ORO, in conjunction with EM, will
render a reasonableness determination regarding the UCOR contractor executive salaries. As
appropriate, we modified our report to address other technical comments from management.

The comments provided by the Office of Acquisition and Project Management, Office of
Environmental Management, and ORO are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Deputy Assistant Secretary, Acquisition and Project Management for
       Office of Environmental Management
      Chief of Staff
      Director, Office of Acquisition and Project Management
      Manager, Oak Ridge Office
REPORT ON APPROVAL OF CONTRACTOR EXECUTIVE SALARIES
BY DEPARTMENT OF ENERGY PERSONNEL


TABLE OF
CONTENTS


Contractor Executive Salaries

Details of Finding                                    1

Recommendations                                       8

Comments                                              9

Appendices

1. Objective, Scope and Methodology                   11

2. Prior Reports                                      12

3. Management Comments                                14
APPROVAL OF CONTRACTOR EXECUTIVE SALARIES BY
DEPARTMENT OF ENERGY PERSONNEL

CONTRACTOR            Generally, the Department of Energy (Department) requires that a
EXECUTIVE             reasonableness determination be made when setting contractor
SALARIES              executive salaries. Such requirements were established in Federal
                      Acquisition Regulation (FAR) 31.205-6, Compensation for
                      Personal Services, and FAR 31.201-3, Determining
                      Reasonableness, and Department Order 350.1, Contractor Human
                      Resource Management Programs. Federal procurement officials
                      charged with oversight of the contract must perform a market
                      analysis and/or make a determination that contractor proposed
                      salaries are reasonable. The Department's Acquisition Letter 2007-
                      02, Contractor Executive Compensation, published on
                      April 3, 2007, provides guidance on the compensation of
                      contractor senior executives under all contracts and the salary of
                      the top contractor management official under management and
                      operating contracts and other contracts designated by the Senior
                      Procurement Official. Acquisition Letter 2007-02 references
                      sections of the FAR applicable to making such reasonableness
                      determinations. Acquisition Letter 2007-02 also sets a threshold
                      for executive salaries to the lesser of 10 percent above the
                      candidate's current salary or 6 percent above the prior contractor's
                      executive reimbursed salary. Further, Acquisition Letter 2007-02
                      mandates that any salaries higher than the thresholds require
                      approval from the Senior Procurement Executive.

                      We substantiated the allegation that a former Oak Ridge Office
                      (ORO) senior management official approved contractor executive
                      salaries for URS|CH2M Oak Ridge, LLC, (UCOR) without proper
                      authority. The events leading up to the UCOR salary approvals
                      involved Headquarters and ORO officials taking a number of
                      actions that were inconsistent with existing policy and were not
                      well coordinated. These actions resulted in higher UCOR salaries
                      that, if left unmodified, could cost the Department an additional
                      $3.45 million over the life of the 5-year contract.

                                 Review and Approval of Salaries

                      Our inspection revealed that responsible Federal officials at Oak
                      Ridge did not use the Department's procedures for setting
                      contractor executive salaries. During the post-award process in
                      June 2011, UCOR submitted proposed salaries for its executives.
                      The UCOR proposal called for salaries ranging from $229,250 to
                      $360,000, which exceeded ORO Human Resources (ORO HR)


______________________________________________________________________
Page 1                                                  Details of Finding
                      comparison of salaries paid under the previous contractor to
                      current market rates. As specified by the Department's Request for
                      Proposal, 30 days after contract award, UCOR's Prime Contract
                      Manager submitted a formal request to ORO for approval of the
                      salaries of its top 10 executives.

                      After submission, and based on the results of a market analysis,
                      ORO HR officials made a reasonableness determination that salary
                      increases should not exceed 6 percent above the prior contractor's
                      executives reimbursed salary. Following the advice provided by
                      ORO HR, an ORO procurement official approved the
                      recommended salaries. While the approved salaries were in line
                      with those recommended by ORO HR, they were significantly
                      lower than those proposed by UCOR. ORO procurement officials
                      told us that UCOR did not agree with the lower salaries and in
                      August 2011, UCOR provided ORO HR additional supporting
                      documentation that it believed justified the higher proposed
                      executive salaries. After analyzing the UCOR submitted data,
                      ORO HR officials took action to increase the salaries for 7 of the
                      10 UCOR executives. The second round of executive salary
                      approvals were still significantly less than those originally
                      requested by UCOR. We noted that the Acquisition Letter 2007-
                      02 was referenced in each of the approval letters signed by the
                      ORO procurement official and the former ORO senior
                      management official.

                      In spite of the increases provided in August 2011, UCOR remained
                      unsatisfied with executive compensation levels and requested
                      reconsideration of its originally proposed salary levels. UCOR
                      noted that it believed the requested salary levels were justified
                      because it was able to recruit the high caliber 10 key executives
                      based on salary proposals it had made in its original proposal.
                      Various ORO officials told us that they examined the renewed
                      request by UCOR but did not believe that the increases could be
                      approved by anyone other than the Headquarters Senior
                      Procurement Executive. We were told that even though ORO
                      management officials were aware of the opinions expressed by
                      various members of the professional staff, in November 2011, a
                      former ORO senior management official approved the salaries for
                      the 10 key executives as originally proposed by UCOR. We could
                      not determine whether the former ORO senior management official
                      specifically considered the market analysis or salary
                      recommendations made by ORO HR prior to making the decision



______________________________________________________________________
Page 2                                                  Details of Finding
                              to approve the salary increases. In addition to approving the higher
                              salaries, the former ORO senior management official, without
                              explanation, also indicated in the letter to UCOR that the proposed
                              salaries were retroactive from August 1, 2011.

The following table details the various contractor executive salary setting actions taken by ORO.

                     Proposed and Approved Contractor Executive Salaries


                               UCOR's            ORO HR              Percent       Difference
                Prior         Proposed          Calculated        Above ORO HR    between ORO
              Contractor      Executive       Market Rates for     Market Rate   HR Market Rate
  UCOR        Executive        Salaries           UCOR               UCOR          and UCOR
 Executives    Salaries       Ultimately        Executive           Executive       Proposed
                            Approved by a        Salaries            Salaries       Executive
                             Former ORO        (June 24, 2011)*                      Salaries
                            Senior Official
    1          $155,556       $299,800           $164,889              82            $134,911
    2          $183,396       $337,581           $194,400              74            $143,181
    3          $149,292       $249,000           $158,250              57            $ 90,750
    4          $151,596       $242,000           $160,692              51            $ 81,308
    5          $152,424       $230,000           $161,570              42            $ 68,430
    6          $163,884       $229,250           $173,717              32            $ 55,533
    7          $182,556       $246,210           $193,509              27            $ 52,701
    8          $305,004       $360,000           $323,300              11            $ 36,700
    9          $240,000       $274,200           $254,400               8            $ 19,800
    10         $213,924       $232,500           $226,759               3            $ 5,741

*Note: Although we did not validate the market rates calculated for UCOR, these figures were
provided to the Office of Inspector General by ORO HR subject matter experts responsible for
determining appropriate executive salary compensation. Therefore, for the purposes of this
report we relied upon the market analysis provided to and used by the Contracting Officer.

CONTRIBUTING                  The issues identified in this report were the result of several
FACTORS                       contributing factors, including inconsistently applied guidance
                              related to the process for setting salaries. The details are
                              discussed below.

                                               Inconsistently Applied Guidance

                      Our inspection revealed that the former ORO senior management
                      official approved the UCOR executive salaries without ensuring
                      that the action conformed to Department guidance. In particular,
                      the former official did not comply with Acquisition Letter 2007-02
                      that specifies that Heads of Contracting Activities can approve an
                      increase to salaries only after obtaining approval from the
______________________________________________________________________
Page 3                                                                 Details of Finding
                      Headquarters Senior Procurement Executive. Acquisition Letter
                      2007-02 also requires the Senior Procurement Executive to consult
                      with the cognizant Program Secretarial Officer prior to granting
                      approval for the higher salaries. However, we learned that these
                      steps were not taken prior to approval of UCOR's executive
                      salaries.

                      On December 7, 2011, we brought this matter to the attention of
                      the former ORO senior management official who approved
                      UCOR's executive salaries. We were told that immediate
                      corrective actions would be initiated to ensure the proper process
                      was executed to provide support for the higher salaries for the 10
                      UCOR executives. The former ORO senior management official
                      also informed us that although a letter approving the increases had
                      been signed, the process was not final because Form 3220.5,
                      Application for Contractor Compensation Approval, was not
                      signed and processed through ORO HR, as required. The same
                      ORO senior management official acknowledged that prior to our
                      meeting, an ORO HR official had explained that because the
                      Heads of Contracting Activities had not been consulted, the ORO
                      senior management official did not have authority to sign the
                      approval letter or the Form 3220.5.

                      On December 10, 2011, shortly after our meeting with the former
                      ORO official who had taken action to approve the salaries, ORO
                      issued a letter rescinding the UCOR executive salaries, which had
                      been approved on November 10, 2011, until further notice. The
                      letter stated that "UCOR is only authorized to charge to the
                      government the salary amounts approved in the letter dated June 24,
                      2011. Any amount higher than the salaries approved in June 24th
                      letter are unallowable."

                      In spite of this action, the higher salaries were billed to the
                      Government and drawn directly against the Department's letter of
                      credit retroactive from August 1, 2011, except for the period
                      between December 10, 2011, and January 23, 2012.

                      On January 23, 2012, the senior ORO procurement official
                      subsequently approved the full amount of the UCOR requested
                      salaries for all 10 contractor executives. During our discussions
                      with this senior ORO procurement official in January 2012, the
                      official took responsibility for making the reasonableness
                      determination and independently approving the higher salaries.



______________________________________________________________________
Page 4                                                  Details of Finding
                      Although requested, the official did not provide us documentation
                      to demonstrate how the reasonableness of the salaries was
                      determined.

                                       Salary Setting Process

                      The issues we identified were the result of two contributing
                      factors— confusion regarding what guidance was operative and the
                      failure of field officials to consistently apply existing Department
                      guidance. Senior Headquarters program officials informed us that
                      they assumed that ORO, as well as other sites, was no longer using
                      Acquisition Letter 2007-02, and were using a new process to
                      establish contractor executive salaries. Specifically, officials from
                      the Office of Environmental Management (EM), and ORO senior
                      officials indicated that the process for setting contractor executive
                      salaries was based on a reasonableness determination made during
                      the Source Evaluation Board (SEB) process (the pre-award phase).

                      After we made inquiries regarding guidance on contractor
                      executive salary determinations, senior Headquarters EM officials,
                      as well as specific ORO senior officials, specifically told us that
                      reasonableness for UCOR executive salaries had been determined
                      during the SEB process. Further, a senior ORO procurement
                      official stated that according to senior Headquarters Office of
                      Acquisition and Project Management (OAPM) and EM officials,
                      Acquisition Letter 2007-02 did not apply. Specifically, and again
                      after the fact and after our inquiry began, Headquarters officials
                      notified the senior ORO procurement official that the SEB process
                      would have already determined reasonableness for the UCOR
                      salaries and that the senior ORO procurement official's signature
                      for approval would suffice.

                      In February 2012, another ORO procurement official (not
                      previously discussed) prepared and signed a document identifying
                      the contractor executive salaries process used during the pre-award
                      phase. The document included information stating that the ORO
                      procurement official made the reasonableness determination during
                      the SEB process for proposal evaluation. The document also noted
                      that as part of the SEB's Cost Analysis, the "Cost Report evaluated
                      the executive compensation levels of the Key Personnel for each
                      offeror." Furthermore, "As part of the SEB evaluation, a cost
                      analysis was performed of each offer, which included . . . a fair and




______________________________________________________________________
Page 5                                                  Details of Finding
                      reasonable price or to determine cost realism." Despite the
                      affirmation, we discovered that the SEB had not actually
                      performed these steps.

                      Our inspection revealed that SEB officials had not made a
                      reasonableness determination or performed a market analysis of
                      the UCOR executive salaries. SEB members told us that they had
                      instead deferred to the ORO HR official's assessment that was
                      historically conducted during the post-award review. In fact, the
                      senior SEB official and the financial SEB official explained that
                      the members had not made a reasonableness determination and that
                      they did not review any market data for comparison to the five
                      offers as would have been necessary to reach a determination.
                      These officials also stated that they did not have the training or the
                      expertise to make a professionally-based reasonableness
                      determination concerning UCOR's executive salaries. Further, the
                      financial SEB official stated that there was not a reasonableness
                      determination made during the SEB process because it was a long
                      standing ORO practice that ORO HR makes this determination
                      during the post-award phase of the contract.

                      We were informed by an EM official that a similar incident
                      occurred last year at the Department's Environmental Management
                      Consolidated Business Center (EMCBC) in Cincinnati, Ohio.
                      EMCBC serves EM in providing contract award, administration
                      and related services for 15 Department sites. The same EM
                      official advised EMCBC that Acquisition Letter 2007-02 was not
                      applicable and that a determination on the reasonableness of
                      salaries had been made as part of the SEB process. As noted by
                      this official, the direction provided to EMCBC and ORO was
                      essentially the same; however, we did not assess EMCBC's
                      executive salary determination process during this inspection.

                      On March 16, 2012, a senior EM official issued a memorandum
                      requesting revisions of Acquisition Letter 2007-02, requiring SEB
                      officials to perform the pre-award compensation analysis. The
                      memorandum further indicated that the ORO procurement official
                      verified that the UCOR executive salaries were determined to be
                      reasonable in the contractor's proposal and contained in the
                      contract. As mentioned previously, it was not until February 2012,
                      approximately 10 months after the award of the contract, that the
                      Contracting Officer signed and provided us a written document
                      outlining salary reasonableness. We requested, but have not
                      received, any additional evidence that a reasonableness
                      determination was performed for UCOR's proposed and approved

______________________________________________________________________
Page 6                                                  Details of Finding
                      executive salaries by the voting SEB members. Therefore,
                      regardless of the guidance followed (Acquisition Letter 2007-02 or
                      SEB Process), we were unable to obtain any evidence to support
                      the final determination for UCOR's executive salaries.

                      In a subsequent discussion on the initial draft of this report and
                      despite direct evidence to the contrary from SEB members, ORO
                      and EM officials still contend that they used the SEB pre-award
                      process to determine reasonableness of executive salaries. ORO
                      indicated that Acquisition Letter 2007-02 does not apply to pre-
                      award actions or to non-Management & Operating (M&O)
                      contracts (UCOR contract is cost plus award fee). ORO and EM
                      officials also indicated that the reasonableness determination was
                      made based on conformity with compensation practices of other
                      proposing firms of similar size in the same industry performing
                      decontamination and decommissioning work, performing work in
                      the same geographic area, and performing similar work under
                      comparable circumstances. Moreover, we were told by ORO
                      officials "as part of the reasonableness and realism determination,"
                      the SEB obtained audit services of an independent consulting firm.
                      As such the officials asserted that they did not inadvertently
                      circumvent the Department's prescribed approval process. The
                      consulting firm informed us, however, that it focused on
                      reasonableness as it pertained to whether the proposed total
                      compensation of any UCOR key personnel exceeded the total
                      compensation benchmark. The consulting firm also told us that it
                      was outside of its scope of work to review contractor key
                      personnel salary for reasonableness based on FAR Parts 31.205-06
                      and 31.201-3.

                      Further, ORO management has acknowledged that in transitioning
                      to a new type of contract, Department officials inadvertently cited
                      the requirements of Acquisition Letter 2007-02 in the contract.
                      Associated process and procedural issues in this matter resulted in
                      differing actions that should not have been taken. ORO is
                      developing processes and protocols to preclude a repeat of the
                      situation in the areas of training for all staff involved in acquisition
                      matters, developing specific steps in assessing executive
                      compensation and specifying roles of the SEB, Contracting
                      Officer, etc.




______________________________________________________________________
Page 7                                                  Details of Finding
OVERALL IMPACT       In light of current budgetary pressures, we concluded that the
                     Department needs to implement executive measures to ensure that
                     contractor executive salaries are: (i) reasonable; (ii) consistent
                     with local market compensations rates; and (iii) established using
                     Departmental procedures. Anything less could adversely impact
                     ORO missions by diverting funds from other pressing mission
                     needs. In this particular case, the Department could incur
                     approximately $3.45 million over the market rate salaries for 10
                     UCOR contractor executive salaries over the life of the 5-year
                     contract.

RECOMMENDATIONS      Although the Department had taken a number of actions to address
                     many of the deficiencies that we identified, we believe that
                     additional actions are necessary. To help address the issues with
                     inconsistently applied guidance, improve the contractor executive
                     salary setting process, and better control salary costs in this area,
                     we recommend that the Director, Office of Acquisition and Project
                     Management:

                          1. Update the policy on contractor executive salaries to
                             include the applicable methodology and the requirement
                             to fully document reasonableness determinations
                             (whether it is pre-award or post-award of the contract);
                             and,

                          2. Ensure that the Department's contracts include the
                             amended process for contractor executive salary
                             reasonableness determinations based on revisions to the
                             policy.

                     We also recommend that the Manager, Oak Ridge Office:

                          3. Ensure the policy and procedures are consistently applied
                             for documenting a reasonableness determination of
                             contractor executive salaries during pre-award or post-
                             award of the contract; and,

                          4. Complete a reasonableness determination regarding the
                             UCOR executive salaries and adjust rates as appropriate.




______________________________________________________________________
Page 8                                                 Recommendations
                      We also recommend that the Deputy Assistant Secretary,
                      Acquisition and Project Management for Office of Environmental
                      Management:

                           5. Ensure the policy and procedures are consistently applied
                              for documenting a reasonableness determination of
                              contractor executive salaries during pre-award or post-
                              award of the contract.


MANAGEMENT AND        Management generally concurred with each of the five recommen-
INSPECTOR             dations in the report. Specifically, regarding recommendation 1,
COMMENTS              the Director, Office of Acquisition and Project Management agreed
                      to update the acquisition letter to clarify the applicability to non-
                      M&O contracts and emphasize the necessity of following
                      Department Order 350.1 and FAR 31.205-6(b), when determining
                      reasonableness of contractor salaries. Also, management
                      concurred in principle with recommendation 2, stating that
                      Department Order 350.1 provides sufficient language requiring the
                      contractor to provide supporting justification for consideration of
                      the initial and proposed changes to executive salary actions (see
                      Department Order 350.1, Chapter IV, Attachment 1, page IV-4,
                      paragraph 4a of the Contractor Requirements Document).
                      However the Department is in the process of eliminating the
                      referenced Contractor Requirements Document from Department
                      Order 350.1 and incorporating the language directly into the
                      applicable contracts. This revision is being carried out through a
                      Departmental enterprise risk management initiative and will
                      transfer language from the Contractor Requirements Documents of
                      Chapters IV through VI of Department Order 350.1 to the Special
                      H Clause of the applicable Department contracts. We believe that
                      the planned corrective actions by OAPM for the two
                      recommendations will emphasize and clarify the process needed
                      for contractor executive salary reasonableness determinations and
                      market analysis, whether it be pre-award or post-award.

                      The ORO Manager concurred with recommendations 3 and 4
                      in the report and indicated that ORO will ensure that local
                      processes and procedures are in place to implement Departmental
                      policy and guidance as it is developed. Also, ORO along with EM
                      will conduct an analysis using all relevant data and information
                      and will render a reasonableness determination regarding the
                      UCOR salaries. Although the ORO Manager concurred, ORO is



______________________________________________________________________
Page 9                                 Management and Inspector Comments
                      maintaining the position that Acquisition Letter 2007-02
                      referenced in the report provides two paths for determining
                      appropriate executive compensation — one for M&O contracts or
                      those designated by the Senior Procurement Executive, and the
                      other for non-M&O contracts. Further, ORO commented that the
                      compensation stated as appropriate in the report appears to be
                      based on the first contract path mentioned. We determined that if
                      the Acquisition Letter 2007-02 did not apply, then all designated
                      contractor executive salaries must be approved by the Senior
                      Procurement Executive. However, we maintain that at the time of
                      our review, the acquisition letter applied to all contracts. In
                      addition, according to the Director, Office of Acquisition and
                      Project Management, the office will make the acquisition letter
                      clearer and will indicate its applicability to non-M&O contracts.

                      Further, ORO indicated that UCOR salary levels were in the
                      middle of the competitive proposals received and that the salary
                      levels parallel executive salaries of other Department cleanup
                      contractors. According to FAR 31.201-3, Determining
                      Reasonableness, there shall be no presumption of reasonableness
                      attached to the incurrence of costs by a contractor. Also, the
                      provisions set forth in Department Order 350.1 have to be met,
                      which include the contract requirements to conduct a market
                      analysis. In a subsequent meeting with senior ORO officials, they
                      acknowledged that the SEB was not adequately trained, did not
                      have the experience, and that ORO did not have a pre-award
                      process in place to conduct reasonableness determinations and
                      market analysis.

                      In addition, the Deputy Assistant Secretary, Acquisition and
                      Project Management for Office of Environmental Management
                      concurred with recommendation 5 and indicated that the office will
                      provide guidance and develop policies and procedures consistent
                      with the updated policy it receives from O APM.

                      We have addressed management's comments and made
                      technical changes to the report, as appropriate. The comments
                      provided by the O APM, EM, and ORO are included in
                      Appendix 3.




______________________________________________________________________
Page 10                                Management and Inspector Comments
Appendix 1

OBJECTIVE             The objective of this inspection was to determine the facts and
                      circumstances surrounding the allegation that an Oak Ridge Office
                      (ORO) management official deviated from established Department
                      of Energy (Department) guidance by approving higher contractor
                      executive salaries for URS|CH2M Oak Ridge, LLC, (UCOR)
                      without the proper authority.

SCOPE                 This allegation-based inspection was completed in March 2013, at
                      the ORO in Oak Ridge, Tennessee.

METHODOLOGY           To accomplish the inspection objective, we:

                          •   Reviewed and analyzed Federal and Department
                              regulations, Department contracts, orders, and documents;

                          •   Reviewed market analysis provided by ORO HR but did
                              not evaluate the validity of the market analysis performed
                              by ORO subject matter experts; and,

                          •   Interviewed ORO senior management officials, the Chief
                              Counsel staff and procurement officials, as well as, senior
                              management and policy officials at Headquarters.

                      We conducted this allegation-based inspection in accordance with
                      the Council of the Inspectors General on Integrity and Efficiency's
                      Quality Standards for Inspection and Evaluation. Those standards
                      require that we plan and perform the inspection to obtain
                      sufficient, appropriate evidence to provide a reasonable basis for
                      our conclusions and observations based on our inspection
                      objective. We believe the evidence obtained provided a reasonable
                      basis for our conclusions and observations based on our inspection
                      objective. Accordingly, the inspection included tests of controls
                      and compliance with laws and regulations to the extent necessary
                      to satisfy the inspection objective. Because our review was
                      limited, it would not necessarily have disclosed all internal control
                      deficiencies that may have existed at the time of our inspection.
                      Finally, we relied on computer-processed data, to some extent, to
                      satisfy our objective. We confirmed the validity of such data,
                      when appropriate, by conducting interviews and analyzing source
                      documents.

                      We held an exit conference with management on March 7, 2013.




______________________________________________________________________
Page 11                                   Objective, Scope and Methodology
Appendix 2

                                      PRIOR REPORTS

The following Department of Energy (Department) Office of Inspector General (OIG) reports are
related to executive compensation and the amounts that can be reimbursed to Department
contractors. Note: These reports cannot be found on the Office of Inspector General's public
website.

   •   Audit Report on Executive Compensation at Selected Office of Science Sites (OAS-L-07-
       19, August 13, 2007). As part of a Department-wide audit of executive compensation,
       the OIG reviewed executive compensation at seven Office of Science sites: Argonne
       National Laboratory (Argonne), Brookhaven National Laboratory (Brookhaven),
       Lawrence Berkeley National Laboratory, Oak Ridge Institute for Science and Education,
       Oak Ridge National Laboratory, Princeton Plasma Physics Laboratory, and Thomas
       Jefferson National Accelerator Facility. For the Office of Science sites reviewed, it was
       found that executive compensation reimbursed to contractors did not exceed the annual
       cap determined by the Administrator, Office of Federal Procurement Policy, and the
       contractors complied with applicable provisions of procurement regulations, Department
       policies and guidance, and their contracts. As such, no recommendations were made in
       this report. At two sites, Argonne and Brookhaven, questioned costs were identified
       related to executive compensation and were addressed in separate reports (Executive
       Compensation at Argonne National Laboratory, OAS-L-07-17, and Executive
       Compensation at Brookhaven National Laboratory, OAS-L-07-18). Two
       recommendations were made in report OAS-L-07-18.

   •   Audit Report on Executive Compensation at Argonne National Laboratory (OAS-L-07-
       17, August 13, 2007). As part of a Department-wide audit of executive compensation,
       the OIG reviewed executive compensation at Argonne. Argonne executive compensation
       costs reimbursed to the University of Chicago did not exceed the annual cap and
       compensation generally complied with applicable provisions of procurement regulations,
       Department policies, and the Argonne contract. However, the review identified other
       questioned costs related to Argonne's executive compensation. Specifically, $414,867 in
       questioned costs were identified, which consisted of $60,346 for chauffeurs, $253,632 for
       fringe benefit costs associated with unallowable salary costs, and $100,889 for the salary
       and fringe benefits of an Argonne executive. The report made recommendations for
       responsible contracting officers to determine the allowability of questioned costs and
       recover costs determined to be unallowable. It was also recommended that the
       contracting officers determine whether costs, similar to those identified in the audit, were
       claimed after September 30, 2005, and recover costs determined to be unallowable.

   •   Audit Report on Executive Compensation at Brookhaven National Laboratory (OAS-L-
       07-18, August 13, 2007). As part of a Department-wide audit of executive compensation,
       the OIG reviewed executive compensation at Brookhaven. Brookhaven executive
       compensation costs reimbursed to Brookhaven Science Associates did not exceed the
       annual cap determined by the Administrator, Office of Federal Procurement Policy, and
       compensation generally complied with applicable provision of procurement regulations,

______________________________________________________________________
Page 12                                                    Prior Reports
Appendix 2 (continued)

      Department policies and guidance, and the Brookhaven contract. However, the review
      identified questioned costs related to Brookhaven's executive compensation.
      Specifically, $31,472 in questioned costs was identified consisting of $10,727 for an
      executive's salary in excess of the approved salary ceiling and $20,745 for fringe benefit
      costs associated with unallowable salary costs. It was recommended that the responsible
      contracting officers determine the allowability of questioned costs and recover costs
      determined to be unallowable. It was also recommended that the contracting officers
      determine whether costs, similar to those identified in the audit, were claimed after
      September 30, 2005, and recover costs determined to be unallowable.

  •   Audit Report on Executive Compensation at Selected Office of Environmental
      Management Sites (OAS-L-07-20, August 13, 2007). As part of a Department-wide audit
      of executive compensation, the OIG reviewed executive compensation at two Office of
      Environmental Management (EM) sites: the East Tennessee Technology Park and the
      Savannah River Site. For the two EM sites reviewed, it was found that executive
      compensation reimbursed to contractors did not exceed the annual cap determined by the
      Administrator, Office of Federal Procurement Policy, and the contractors complied with
      the applicable provisions of procurement regulations, Department policies and guidance,
      and their contracts. No recommendations were made in this report.

  •   Audit Report on Executive Compensation at Selected National Nuclear Security
      Administration Sites (OAS-L-07-21, August 13, 2007). As part of a Department-wide
      audit of executive compensation, the OIG reviewed executive compensation at four
      National Nuclear Security Administration (NNSA) Sites: Los Alamos National
      Laboratory, Lawrence Livermore National Laboratory, Sandia National Laboratory, and
      the Y-12 National Security Complex. For the four NNSA sites reviewed, it was found
      that executive compensation reimbursed to contractors did not exceed the annual cap
      determined by the Administrator, Office of Federal Procurement Policy, and the
      contractors complied with the applicable provisions of procurement regulations,
      Department policies and guidance, and their contracts. No recommendations were made
      in this report.




______________________________________________________________________
Page 13                                                    Prior Reports
Appendix 3

                      MANAGEMENT COMMENTS




______________________________________________________________________
Page 14                                           Management Comments
Appendix 3 (continued)




______________________________________________________________________
Page 15                                           Management Comments
Appendix 3 (continued)




______________________________________________________________________
Page 16                                           Management Comments
Appendix 3 (continued)




______________________________________________________________________
Page 17                                           Management Comments
                                                                    IG Report No. DOE/IG-0882

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.

Name __________________________________ Date ________________________________

Telephone ______________________________ Organization __________________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
